IN THE SUPREME COURT OF THE UNITED STATES
KHAYREE SMITH-EL - Petitioner
VS

of
UNITED STATES SUPREME COURT'
state

. i

-Respondent

PROOF OF SERVICE
I, Khayree Smith-El , do hereby declare .that.on this date \X~if' Z0
as required
by supreme court rule 29 I have served.'the’ 'enclosed .motion for leave to, proceed in
Forma Pauperis and petition for writ of national habeas.corpus on each party to the
above proceeding, or the party's counsel and
served, by depositing an envelope containing
mail properly addressed to each of them with
delivery to a third party commercial carrier

on every other person required, to be
the above documents in the United States
first-class postage prepaid, or by
for delivery within 3 calender days.

Tne names and addresses of those served are as followed: Clerk of the United States
Supreme Court; One 1st Street NE, Washington, DC 20543; WMM.

fiewesul Xo1] Wt&jM

f-0

Ai/!>

I declare under penalty of perjury that the foregoing is true and correct.
Executed on jZ~lQ ~20
___ ____ .

~

h,

